<html>
<title> - READY, WILLING, AND ABLE TO WORK: HOW SMALL BUSINESSES EMPOWER PEOPLE WITH DEVELOPMENTAL DISABILITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 READY, WILLING, AND ABLE TO WORK: HOW SMALL BUSINESSES EMPOWER PEOPLE 
                    WITH DEVELOPMENTAL DISABILITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 9, 2018

                               __________
                               

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
 
 
                               

            Small Business Committee Document Number 115-071
             Available via the GPO Website: www.govinfo.gov
             
             
             
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-918                 WASHINGTON : 2018                 
 
 
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Ms. Angela Timashenka Geiger, President and CEO, Autism Speaks, 
  Washington, DC.................................................     4
Mr. Dave Friedman, Founder and CEO, AutonomyWorks, Downers Grove, 
  IL.............................................................     5
Mr. John Cronin, Co-Founder and Chief Happiness Officer, John's 
  Crazy Socks, Melville, NY, accompanied by Mr. Mark X. Cronin, 
  Co-Founder and President, John's Crazy Socks...................     7
Ms. Lori Ireland, President, Extraordinary Ventures, Vice Chair 
  Autism Society of America, Chapel Hill, NC.....................     9

                                APPENDIX

Prepared Statements:
    Ms. Angela Timashenka Geiger, President and CEO, Autism 
      Speaks, Washington, DC.....................................    22
    Mr. Dave Friedman, Founder and CEO, AutonomyWorks, Downers 
      Grove, IL..................................................    32
    Mr. John Cronin, Co-Founder and Chief Happiness Officer, 
      John's Crazy Socks, Melville, NY, accompanied by Mr. Mark 
      X. Cronin, Co-Founder and President, John's Crazy Socks....    39
    Ms. Lori Ireland, President, Extraordinary Ventures, Vice 
      Chair Autism Society of America, Chapel Hill, NC...........    47
Questions and Answers for the Record:
    Questions from Hon. Brad Schneider to Mr. Dave Friedman and 
      Answers from Mr. Dave Friedman.............................    53
Additional Material for the Record:
    Statement from Rep. Adriano Espaillat........................    57


 READY, WILLING, AND ABLE TO WORK: HOW SMALL BUSINESSES EMPOWER PEOPLE 
                    WITH DEVELOPMENTAL DISABILITIES

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building, Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Brat, Radewagen, Blum, 
Comer, Fitzpatrick, Marshall, Norman, Curtis, Velazquez, Evans, 
and Schneider.
    Chairman CHABOT. Good morning. I call this hearing to 
order. I want to thank everyone for being with us. I am Steve 
Chabot, Chair of the Committee and Nydia Velazquez, the Ranking 
Member. Last Friday, the Department of Labor reported that the 
non-farm unemployment rate is a little under 4 percent, 3.9 to 
be exact, the lowest rate in nearly 2 decades. The last time 
the unemployment rate remained below 4 percent for a sustained 
period was the late 1960's. April also marked the 91st 
consecutive month of job gains, the longest streak of monthly 
increases on record.
    While this is great news for America, here at the Small 
Business Committee, we continue to hear from small businesses 
about a consequence of historically low unemployment and that 
is the lack of qualified applicants or the skills gap. During 
times of economic prosperity, small businesses often find it 
more difficult to compete with large companies in attracting 
qualified candidates leaving some jobs unfilled.
    One segment of American society that is often overlooked 
when discussing economic opportunities through new job growth 
is the special needs community which brings us to the topic of 
today's hearing.
    About two years ago, this Committee held a hearing about 
small business opportunities for individuals with intellectual 
and developmental disabilities. While employment and labor 
force participation rates for the disabled population have 
increased since then, there are still many individuals who want 
to obtain meaningful and sustaining employment. Given the 
innovation, flexibility and diversity of small businesses, they 
can offer inclusive environments for employees with 
developmental disabilities and fill jobs vital to operating and 
expanding their businesses.
    Today, we are highlighting small business and entrepreneurs 
who are successfully creating jobs and providing opportunities 
for individuals with developmental disabilities. We will also 
hear from advocates who are continuing to raise awareness to 
small business employers that these individuals are ready, 
willing and able to work.
    I appreciate the witnesses being here today and if I ever 
stop talking we will get to them. And I look forward to hearing 
their testimony as I am sure we are all do. And I would now 
like to yield to the Ranking Member, for her opening remarks.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. For most people, 
work is closely aligned with feelings of self-worth, 
independence, and a general sense that one is contributing to 
society. Generally, when small businesses are succeeding, the 
result is greater employment opportunity for all Americans. 
Small businesses open doors and create jobs in their 
communities by helping people earn a living doing the things 
that they are most passionate about.
    Unfortunately, one particular demographic continues to face 
persistent challenges when it comes to securing employment. 
Individuals with autism, spectrum disorder or Down syndrome 
have an unemployment rate significantly higher than the 
national average. It is estimated that 80 percent are 
unemployed or under employed.
    Regrettably this population faces an uphill battle to 
overcome false perceptions about their abilities and capacity 
as employees. Many of those on the autism spectrum excel in 
specialized kinds of work like software testing, lap work and 
proofreading. They observe details that others miss and are 
able to focus for long periods of time. Naturally, they take 
well deserved pride in their distinctive abilities and atypical 
ways of viewing the world.
    Similarly individuals with Down Syndrome are valued members 
of the work force when given the opportunity. Yet, despite 
their proven abilities, desire to work and the benefits to all 
parties involved, a lack of opportunity remains. Enhancing 
opportunities for these employees is not only beneficial from a 
business perspective but also from an overall society 
perspective.
    Research shows employing individuals with disabilities 
reduces reliance on publicly funded adult services. With 
increased public awareness and the excellence shown by those 
already in the work force, many of the false notions about 
those with autism are starting to be debunked.
    Today, small businesses are at the forefront of creating 
innovative business models that employ these highly competent 
and hardworking individuals. We are very happy to have some of 
them here today to share their experiences.
    I hope this hearing will further dispel misconception while 
making it clear that great things are being done across the 
nation to bring more individuals with autism or Down syndrome 
into the work force.
    I would like to thank the witnesses for testifying and look 
forward to your testimony. Thank you Mr. Chairman, I yield 
back.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back and if Committee members have opening statements prepared 
I ask that they be submitted for the record.
    And I would like to take just a moment to explain the 
timing lights and our rules here. It is pretty simple. You get 
5 minutes to testify. You will have a lighting system. The 
green light is on for 4 minutes, the yellow light will let you 
know that you have a minute to wrap up and then the red light 
will come on. And we would ask that you try to stay within 
those limits and when the red light comes on that is kind of 
it. So and I will now introduce our panel.
    Our first witness this afternoon or this morning will be 
Ms. Angela Geiger. Ms. Geiger is the President and CEO of 
Autism Speaks here in Washington, D.C. Autism Speaks advocates 
and supports individuals with autism and their families 
including working with both employers and employees to increase 
employment opportunities for individuals with autism.
    And I might note for the record that my Chief of Staff, 
Stacy, her daughter who is 18 years old has autism and she has 
educated me a great deal over the years and I have had the 
opportunity to speak to her class before and they have come to 
Capitol Hill to visit Washington and it is very inspiring to 
me. In fact Friday evening I got a text from Stacy and it was 
her daughter's prom and so she was coming down their steps in a 
very beautiful dress and she is just a beautiful young lady and 
it was very, it was really nice. So if anybody wants to see 
them they are on my iPhone here so.
    And we will introduce our next witness. Our second witness 
will be Dave Friedman and he is the Founder and CEO of Autonomy 
Works in Downers Grove, Illinois. Autonomy Works is a small 
business providing digital marketing services for their clients 
and high tech jobs for individuals with autism and we welcome 
you here, Mr. Friedman.
    Our next witness will be Mr. John Cronin. John is the Co-
founder and Chief Happiness Officer of John's Crazy Socks in 
Melville, New York. John founded the company with his father, 
Mark, who is also with us here today and John's passion for 
crazy socks and spreading happiness led to a startup business 
that now employees 33 people including 15 with differing 
abilities. And we welcome you, John and his dad is welcome 
here, but John, you are especially welcomed here today. So 
thank you for coming. Thank you.
    And I would now like to yield to the Ranking Member to 
introduce our final witness.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. I would like to 
introduce Lori Ireland. She is a Co-founder of Extraordinary 
Ventures and the Vice Chair for Autism Society of America. For 
the last decade she has devoted her time and energy to creating 
jobs and opportunities for people with autism. She also serves 
as a Director for the Ireland Family Foundation, an 
organization that helps support research and direct services 
for adults on the autism spectrum. Ms. Ireland earned a 
master's in business administration from the University of 
California Berkley. Welcome. Thank you.
    Chairman CHABOT. Thank you very much. And, Ms. Geiger, you 
are recognized for 5 minutes.

  STATEMENTS OF ANGELA TIMASHENKA GEIGER, PRESIDENT AND CEO, 
 AUTISM SPEAKS; DAVE FRIEDMAN, FOUNDER AND CEO, AUTONOMYWORKS; 
  JOHN CRONIN, CO-FOUNDER AND CHIEF HAPPINESS OFFICER, JOHN'S 
 CRAZY SOCKS; LORI IRELAND PRESIDENT IRELAND FAMILY FOUNDATION

             STATEMENT OF ANGELA TIMASHENKA GEIGER

    Ms. GEIGER. Thank you. Good morning, Chairman and Ranking 
Member Velazquez and members of the Committee. I am Angela 
Timashenka Geiger, the President and CEO of Autism Speaks. We 
at Autism Speaks are dedicated to promoting solutions across 
the spectrum and throughout the life span for the needs of 
people with autism and their families. We do work on issues 
across the entire lifespan but place a special emphasis on 
adults with autism in part by providing tools and resources to 
expand employment opportunities.
    Thank you very much for giving us the opportunity to talk 
to you about some of these overarching themes and trends for 
employing people with autism and how small businesses 
specifically are utilizing their unique ability to employ 
individuals with autism.
    As you have mentioned, the employment rates of adults with 
disabilities is much lower than those for people without 
disabilities. And the employment rate of individuals with 
autism is lower still. 1 in 4 adults with disabilities like 
autism is employed whereas 1 in 3 adults with other 
disabilities hold a job in this current economy.
    Each year an estimated 50,000 youth with autism transition 
from school into adult life, and over half of these people are 
disconnected from work or further education and training. But 
despite this, progress is being made. In the last year 
employment rates for people with disabilities have increased 
continuing the upward trend over the last 24 months. In fact in 
March of 2018 the Bureau of Labor Statistics reported the 
employment participation age rate for working age people with 
disabilities increased from 34.8 percent up from 32.3 percent 
the previous year. This rate of increase really importantly is 
greater than the rate of increase for people without 
disabilities. So these gains are really encouraging and suggest 
that some progress we are at least in the right direction.
    So through our continued work on employment, we have 
identified three trends employing people with autism that we 
would like to highlight today. First, one of the most rapidly 
reported and reproduced trends is mission driven businesses. 
This is where social entrepreneurs create a business whose 
mission is to hire people with autism. You will see some of 
those examples here today.
    Also an increasing number of large employers have announced 
autism employment initiatives to diversity their work force and 
certainly to attract more people into the work force with the 
employment rate as it is. We are really working at Autism 
Speaks to systematize some of those best practices so that they 
can be used much more widely in the public.
    And the third major trend we see is an increase in the 
number of micro enterprises and small businesses established 
and operated by entrepreneurs with autism. Again you will hear 
more about that today from some of the other witnesses.
    Some of the ways Autism Speaks directly impacts employment 
people with autism is through consultation, through creating a 
jobs portal workforce to providing absolutely free tool kids 
and training to small businesses and other business alike and 
we want to continue this trend and do more into the future. So 
while these trends and themes are promising, there does remain 
room for improvement in three specific ways.
    First, transition services in schools must be improved and 
consistently start earlier. These transition services can start 
as early and should start as early as 14 or 16 depending on 
your state and must include coordination or cross vocational 
rehabilitation, special education and career services. Schools 
must work with community employers to help match student with 
available jobs.
    Second, coordination, these coordination across service 
needs to be improved. Autism Speaks absolutely agrees with 
HHS's recommendation to Congress contained within the 2017 
Autism Cares Report on a transition. What that did was increase 
alignment between different entities serving transition age 
youth. And that would result in more seamless service delivery 
and improve employment outcomes for adults. Again this 
coordination is so necessary for the success of people with 
autism and other disabilities.
    And finally, the state level implementation of the 
Workforce Innovation Opportunity Act of 2014 and Medicaid home 
and community based services needs to result in meaningful 
outcomes for adults with autism. When this act was passed in 
2014 it included preemployment transition services as a 
strategy to improve employment outcomes for individuals with 
disabilities.
    We at Autism Speaks are really working hard with states to 
figure out what is working really well and how we can replicate 
those models across other states and communities. And so 
employment truly is more than the key to independence. Our jobs 
are, in large part in the way we define ourselves. People with 
autism deserve the same rights in that as other people. And we 
look forward to working with you to strengthen that 
partnership. So thank you.
    Chairman CHABOT. Thank you very much. Mr. Friedman, you are 
recognized for 5 minutes.
    Mr. FRIEDMAN. Thank you. Chairman and Ranking Member, 
members of the Committee----
    Chairman CHABOT. Do you want to turn the mic on?

                   STATEMENT OF DAVE FRIEDMAN

    Mr. FRIEDMAN. Chairman and Ranking Member and members of 
the Committee, thank you for inviting me to share my story and 
a little bit about my team at Autonomy Works. I am Dave 
Friedman. I am sitting in front of you for only one reason. I 
am sitting here because of my son, Matthew. Matthew is 22 years 
old and like a lot of 22-ear olds, he's an avid sports fan. He 
runs. He plays in a basketball league. He loves his iPad and 
his games. But unlike lots of 22-year olds, Matthew has autism. 
He has lots of skills. He is exceptional at math. He is very 
good with spatial learning.
    But, his autism presents several challenges. He has a hard 
time with social interactions. He has a hard time with planning 
and organizing.
    When kids with disabilities turn 14 and a half the school 
system is required to start a process called Transition 
Planning where you start to look at what a kid with a 
disability is going to do after they graduate from high school.
    Matt has a lot of talents, but he wasn't likely to be 
successful in a traditional college environment. He doesn't 
have the social skills or the organizational skills. My wife 
and I started trying to figure out what he might do after he 
graduated from high school. And we were shocked, stunned 
literally, about how few opportunities existed in the 
professional world for people with autism.
    There are very few jobs and the jobs that exist are largely 
low skill and don't take advantage of the talents that many 
people with autism have.
    As Ms. Geiger said, Matthew is not alone. People with 
intellectual disabilities have very low work force 
participation rates. Where they do participate in the 
workforce, they have very high unemployment rates. Given that 
50,000 people with autism graduate from the school system into 
the world of work every year, this presents a significant 
challenge for both families and communities.
    For most of the people with autism, the challenge with 
employment is not the result of technical or functional skills. 
Many people with autism possess skills that are very valuable 
in today's work force--intense focus, comfort with numbers and 
process, and a passion for detail and quality. However, many 
people with autism have challenges that make it difficult for 
them to be successful in the workplace. Businesses large and 
small lack the knowledge and experience required to hire and 
manage this workforce. In 2012, I left my corporate career and 
founded Autonomy Works to help close this gap.
    Autonomy-Works is a for-profit commercial business. We 
leverage the talents of people with autism to provide our 
clients with essential services. We have been operating for 
five years and serve more than 15 commercial clients. Each 
week, our team of Associates delivers hundreds of discreet 
tasks for our clients at exceptional levels of quality. We were 
built from the start to employ people with autism. We created a 
business system and a custom-tailored work environment to make 
them successful.
    Since our founding, we have generated more than 70,000 
hours of paid employment for adults with autism. We are growing 
and by the end of 2020 anticipate employing more than 100 
people. Without their jobs at Autonomy-Works, most of these 
individuals would be relying on public assistance or the 
support of their families. Working at Autonomy-Works enables 
them to earn income while building skills that are valuable for 
many other jobs.
    Across all of our employees, we have seen the challenge, 
the potential, and the transformation that happens when people 
get jobs. There are literally too many stories to possibly 
share with you here today. But if I could speak just of one, if 
I could speak as a father about my son, I have really seen how 
it has changed his life. When Matthew graduated from school, 
like lots of people with disabilities, he looked back to the 
security and the supports that he had when he was in high 
school and his transition program. Work has given him a new 
purpose. He has mastered public transportation. He attends a 
local community college so he can learn new skills to be able 
to work and he is preparing to live independently. Matthew is 
building a life.
    There is a lot more to be done. Small businesses generate a 
large portion of the jobs in the country. Small businesses are 
going to have to be part of the solution for people with 
disabilities. With your actions, this Committee has the ability 
to support small businesses that are trying to hire people with 
disabilities.
    There are two specific things which I would like the 
Committee to consider going forward. The first is to expand the 
8(a) Business Development Program to include businesses that 
hire people with disabilities. Today, participation is based on 
other criteria that don't incorporate these types of business.
    Second, I would like to ask the Committee to support small 
business apprenticeship programs. Apprenticeships are a proven 
approach for transitioning people with disabilities into jobs. 
The scale of small businesses can make it difficult to develop 
and operate apprentice programs. We encourage this Committee to 
explore and support targeted initiatives that enable small 
business to build these programs collaboratively.
    With that, Chairman, Ranking Member and members of the 
Committee, thank you for letting us share our story and more 
importantly the story of my colleagues at AutonomyWorks. I look 
forward to your questions.
    Chairman CHABOT. Thank you very much. Mr. Cronin, you are 
recognized for 5 minutes whenever you are ready.

                    STATEMENT OF JOHN CRONIN

    Mr. JOHN CRONIN. Good morning, Chairman Chabot, Ranking 
Member Velazquez and members of Committee. My name is John 
Cronin, and I am the Co-founder and Chief Happiness Officer of 
John's Crazy Socks. Thank you for inviting me to be here today 
as a representative and self-advocate of the National Down 
Syndrome Society.
    I have Down syndrome and Down syndrome never holds me back. 
I am 22 years old and I work hard every day to show the world 
that people with Down syndrome are ready, willing and able to 
work. Giving us a chance and we can be successful.
    I founded this business with my dad, Mark. It was my idea 
and I came up with the name. We have a mission to spread 
happiness. I love my business.
    In the fall of 2016 I began my last year of school. I was 
ready to work. I did not need more school. I did not need more 
training. I wanted a good job like my brothers Patrick and 
Jamie. I told my dad that I wanted to go into business with 
him. We opened John's Crazy Socks in December 2016.
    We show everyday what is possible. We show can work a great 
business. We have a ship over 100,000 orders and make over 300 
million. I want you to know what people like us, like me can 
do. Give a chance to us.
    Mr. MARK CRONIN. Thank you. Good job. John is a hard act to 
follow. My name is Mark Cronin and I am John's father and 
partner in John's Crazy Socks. Last year, the National Down 
Syndrome Society launched the End Law Syndrome Campaign. A 
national effort to spotlight those laws that hinder individuals 
with Down syndrome and other disabilities from fulfilling their 
aspirations. As John puts it, Down syndrome doesn't hold me 
back, Law Syndrome does.
    In my written testimony I address many of the specific 
legal changes we need to dismantle Law Syndrome. I want to 
highlight tow this morning. John already told you we have been 
fortunate enough to create 33 jobs, 15 of which are held by 
people with differing abilities. We have a unified work place. 
That leads to better morale, better retention and better 
productivity and we hire people not out of altruism but because 
it is good business.
    We pay our minimum wage is $12 an hour. That's $1 more than 
the New York state minimum wage on Long Island. Our colleagues 
do not do minimal work so we don't pay them a minimum wage. The 
sad reality is that we could pay much less and these people and 
their families would still like them to come to work and that 
is because of the scarcity of good jobs for people with 
differing abilities.
    But that would be wrong. Taking advantage of vulnerable 
workers may put more money in a business bank account but it 
would be morally bankrupt.
    I was dismayed to learn that the section 14(c) of the Fair 
Labor Act of 1938 allows employers to pay people with a 
disability less than a minimum wage. This may have been 
acceptable in 1938 and that was a time when my son would have 
been institutionalized. But it's not acceptable today. It is 
outrageous that we sanction such discrimination.
    People with disabilities can and do provide valuable work 
and should not be paid a wage that allows even well-meaning 
organizations to take advantage of their labors. It is time 
that all workers receive a fair wage for fair labor.
    We ask that you support the TIME Act, HR 1377, a bipartisan 
bill that would phase out the practice of paying subminimum 
wage.
    I also want to address the need to alter our Medicaid laws. 
They, so they support people of differing abilities and not 
hinder them. Our colleagues with disabilities work part-time. 
Why? Because if they work too many hours why will lose their 
Medicaid and they cannot afford to do so. I want you to take 
Matt, one of our colleagues who has Asperger's. He started work 
with us as a sock wrangler, that's what we call our pickers at 
our pick and pack warehouse. And he has now shown a talent so 
he is writing for our website. Matt would love to work 40 hours 
a week but cannot because he cannot afford to lose his 
Medicaid. Don't we all want Matt to work full-time? I know I 
do. Then why have laws that limit how much he can work?
    And my son John here is a classic entrepreneur. He doesn't 
receive any benefits right now but he is entitled to them and 
likely will need them in the future and then he would have to 
choose between his benefits and his business. Do we want to 
prevent people from engaging in entrepreneurship?
    It is time to decouple the poor from the disabled in our 
means tested programs so that people with differing abilities 
can work full-time and maximize their contributions to society. 
We want to encourage people to work, to find meaning in that 
work and to pay taxes so let's remove the disincentives to 
work.
    Those are just two of the laws that discourage people with 
disabilities from becoming active and productive participants 
in their communities. Mr. Chairman and Committee members, lets 
show the amazing things that people with differing abilities 
can do. Give everyone a chance to demonstrate that they are 
ready, willing and able to work. Thank you for your time.
    Chairman CHABOT. Thank you very much. Ms. Ireland, you are 
recognized for 5 minutes.

                   STATEMENT OF LORI IRELAND

    Ms. IRELAND. Hi, I'm Lori Ireland. Thank you, Mr. Chabot 
and Ms. Velazquez. I am the elected chair as noted of the--Vice 
Chair of the Autism Society of America but I am here really as 
one of the founders of Extraordinary Ventures in Chapel Hill, 
North Carolina.
    I am sure everybody is aware of the statistics that come 
out from the CDC, et cetera. Angela, I think has mentioned the 
low employment amongst people with IDD. Extraordinary Ventures 
we founded in 2007 because and I'm going a little off script 
here so don't get mad. Because a group of us decided, you know, 
after age 22 it's called the cliff. There is, once you are out 
of the IDEA, covered under IDEA in the public schools, there is 
virtually nothing for you.
    Now there are lots of rules and regulations that you all 
are told about, not enforced. So one of the important things 
that your Committee and our government at large is first of all 
enforce the proper rules and make sure the states are in 
compliance.
    We have an operating budget of just over a million dollars. 
We are 80 percent business revenues and 20 percent private 
donations. We have 50 tax paying employees. They all, we think 
and this is an important distinction, we think most of them 
have a developmental disability. We don't have, we don't accept 
any government funding directly nor are we a medical facility 
so we don't know anybody's diagnosis. I think we could agree 
that if we knew that they wouldn't be allowed to work together.
    It is the way the people with IDD are treated in our 
society is a civil rights violation in my opinion. The--anyone 
else can choose to live together or work together except our 
people. If they are identified as special needs then you have, 
it can only be two or this or that and that's ridiculous. We 
need to provide opportunities to everyone that wants to work 
and if they want to live or work together that should be fine.
    We have accomplished our mission through old fashioned 
business practices. We operate real businesses. We decided we 
would run for profit businesses under a not for profit 
umbrella. So what we do is we match the skills of the people 
who apply for a job with jobs so if somebody likes to cook, we 
don't have cooking but we can make candles which is essentially 
the same thing.
    So again, usually when you are running a small business you 
are solving at the bottom line for profit. We are solving for 
hours of employment. And our people are fabulous. We do not 
compete in any of our goods or services based on a disability. 
We operate in the real market at the same competitive rate as 
everyone else and that is the only way it can remain 
sustainable in our opinion.
    We run six businesses currently. A pickup and delivery 
laundry business. I live in Chapel Hill so when I went to 
college I had to do my own laundry but nobody does now so and 
we are the preferred provider with a very long waiting list 
because we do the best job. We do not--the students and the 
private citizens who contract with us don't know until several 
bags in that most of the people have a developmental disability 
that are doing their laundry. So these are real small business.
    Another one is a bulk mailing operation which is sort of 
back office kind of things. We have a gifts business. As I 
mentioned we make candles, lip balm, soaps, other things in 
order to capture that market and the people who want to cook 
without having to get into all the rules and regulations of 
food.
    We have an EV pet business which has turned out about 
absolutely wonderful. These people are in the community, 
walking people's pets and you will just love some of these 
stories because we have a lot of senior citizens that contract 
mainly so that I think they can have the person come over and 
visit them every day. It's not--it is a win win situation. They 
bake cookies for Ewan because he is coming over to walk their 
dog. It's wonderful.
    We also have a contract with the city of Chapel Hill and a 
certain line of buses. We have a bus cleaning crew because that 
is something we actually compete on a contractual basis with 
other vendors and that's something that can easily be 
regimented to a schedule. We also run an event center and that 
does not employ as many of our people as we would like but it 
does throw off revenue so that we can employee people in other 
businesses.
    I think our key and I'm almost out of time is that we have 
flexibility to move people between businesses because your--the 
parent or guardian will come in and be absolutely certain they 
know what the person is good at and what they want to do. We 
find out that isn't always the case and we can slide them 
around amongst different business.
    I also want to--I know I'm over time but we employee all 
parts of the spectrum. We have people who are college graduates 
and drive themselves to work and we have people who have to be 
helped in the door. We need your help as Mr. Cronin was saying 
to be able to support our people without them losing their 
benefits. Because you can't--we pay everybody. Minimum wage at 
least. And while I do advocate eventually getting rid of what 
we call supported workshops please don told that without 
replacing it with something else. There are many people in 
there that have worked there their whole lives. And if you just 
throw the baby out with the bath water we will have an even 
worse problem. I have a whole lot of other things I was 
supposed to say but my colleague said them so thank you very 
much.
    Chairman CHABOT. Thank you very much and we will now move 
to the questioning and I will recognize myself for 5 minutes 
and I will start with you if I can, Mr. Friedman. How can we 
make business aware of the value individuals with autism for 
example can bring to the work force and move past maybe some 
hesitation that some people might have to hire them due to a 
perceived challenge or risk factors or whatever?
    Mr. FRIEDMAN. There are an increasing number of 
organizations, Autonomy-Works, Extraordinary Ventures and 
others, that are starting to create case studies. One of our 
objectives is to change the way the world views people with 
autism. We are trying to create a story that can be told by 
organizations like Autism Speaks and others through the small 
business network to explain to people where successes have 
happened and to share some of the tools, techniques, and 
processes we have learned to make people successful in our 
place. We are starting to get the stories and now it is time to 
expand those and amplify them.
    Chairman CHABOT. Thank you. Ms. Geiger, I will turn to you 
next if I can. Are there incentives available to encourage 
business to higher people with developmental disabilities? Are 
there various things that they may--there may be an incentive 
or a reward or whatever term you want to use?
    Ms. GEIGER. I think some of the most important incentives 
are actually intrinsic to the hiring process of people with 
autism and other disabilities. We are finding that it is really 
increasing the productivity, retention, quality of work. 
Amazon, for example, did a pilot project in their pick and pack 
facility and found that the people with autism were out 
performing other employers so--or employees. And so the other 
thing is with the millennial generation coming into the work 
force, they are used to integrated environments and there have 
an expectation what people with autism and other disabilities 
are part of the workforce.
    Chairman CHABOT. Very good. Thank you. Ms. Ireland, I will 
turn to you next if I can. Are there any common misconceptions 
about employing individuals with developmental disabilities and 
if so what can be done to address those misconceptions that 
perhaps others out there may have?
    Ms. IRELAND. I think just exposure and education. If as my 
gentleman over here has pointed out, Mr. Friedman, and myself, 
we are--people that work for us sometimes leave us and go on to 
other jobs because now they have experience, they have learned 
how to be an employee. And they have proved to be wonderful. 
Others are celebrating 10 years working for us and it's the 
only job they have ever had. But the point is people need to 
get out there.
    Angela mentioned transition services. This is--we really 
need to get people to understand our people are really good 
employees. The retention rate is practically 100 percent and 
they are very productive members but you have to see those 
people. We have to give an opportunity for everybody in our 
world to see them. And by running our small businesses in our 
community everybody knows us and so they steal some of our 
employees but that's okay.
    Chairman CHABOT. Very good. Thank you. Mr. Cronin, I was 
going to ask your son but I will ask you, I know he is having 
some challenges coughing there which there is a lot going 
around right now. But I wanted to clue you in to a potential 
customer that you may want to consider. We had an election a 
while back, the gentleman is smiling down there from Utah and 
Jason Chaffetz left so there was an opening, an open seat there 
and John Curtis won that seat. And I read this in, I don't know 
if it was Roll Call or The Hill or Politico or something but he 
is known for like being a collector of like really cool socks.
    And I was touring small businesses back in my district, I 
represent Cincinnati and it was--one of them happened to be a 
sock shop and they had some really cool socks. So I told them 
about John Curtis and so they gave me some socks to give to him 
and I actually finally got around to giving them to him last 
week, I don't know if he has got them on now, I'm guessing no, 
but I think there is a possible customer right here for your 
son. He is from Utah. His name is John Curtis and, John, how 
any socks do you have now or different, cool socks?
    Mr. CURTIS. Well, Mr. Chairman, somebody once asked me to 
count and I stopped at 300.
    Chairman CHABOT. Okay. So in any event you might want to 
talk to your son about a potential Utah customer.
    Mr. JOHN CRONIN. I think we can help. If I could I would 
like to add on to the last question.
    Chairman CHABOT. Yes, go right ahead.
    Mr. JOHN CRONIN. I know part of our mission is to show what 
is possible. We want people to see what our workplace is like 
that, you know, it's a unified work place, people with 
differing abilities side by side with neuro typical people. It 
makes it a better place so when people come in and see that, 
that opens their minds to what is possible and I know part of 
what we do is we take that process and turn it into content 
that we share on social media. We are going so far as to create 
a John's Crazy Socks network that are going to feature shows, 
you know, put online that are hosted by or feature people with 
disabilities. Just so the world can see.
    Chairman CHABOT. Yes, thank you very much.
    Mr. JOHN CRONIN. The more people see the better off we will 
be.
    Chairman CHABOT. And my time is expired but I might just 
mention that in our last hearing we had a young man who had 
started up a popcorn store that's gone nationwide and worldwide 
and universe wide and he has been making a lot of money and 
they're doing well and they've hired a lot of people and so 
these stories are all very inspirational. And, I mean, we ought 
to be doing a whole lot more of this so thank you. Thank you 
very much. And my time as I say is expired and I yield to the 
gentlelady for 5 minutes. Thank you.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman, and thank you all. 
It has been quite inspirational hearing to hear so many 
beautiful stories. And so we need to look at ways where we can 
improve the information that gets out there because at a time 
when unemployment rate is so low, this offers a real 
opportunity.
    My first question is, have any of you reached out to the 
Small Business Administration to see how we can best bring that 
information to the small business community? Ms. Geiger?
    Ms. GEIGER. We haven't done that in a formal way yet but I 
think it's a really interesting opportunity for us because at 
Autism Speaks we have actually created took kits for employers 
that they can access free of charge. We have training for 
businesses who want to learn how to do this and so I think that 
that might be a fantastic venue to get more people aware of the 
opportunities.
    Ms. VELAZQUEZ. Sure. Mr. Friedman?
    Mr. FRIEDMAN. We have worked a little bit with the Small 
Business Administration looking for opportunities where we 
could collaborate. We host lots of people, two or three groups 
a week, at our facility to help explain what we do and how we 
do it. We talk about ourselves as an open source business and 
we share a lot of what we do. We would be very interested in 
collaborating with the Small Business Administration to speak 
or to create case studies or to talk to particular 
organizations interested in hiring people with disabilities.
    Ms. VELAZQUEZ. Great. Ms. Ireland, have you ever had?
    Ms. IRELAND. Yes. We have really gone the route of not 
using those sources because again it introduces a lot of 
complexity and difficulty and road blocks actually. So instead 
my husband and I in our private foundation along on a project 
with Autism Speaks some years ago we went around the United 
States and visited all these small business. We then ran town 
hall meetings in about eight or nine cities, I can't remember 
and then we culminated that in a conference in Chapel Hill 
where all these small businesses, including the popcorn guy, 
came together and it was such a joyful event because it showed 
what you can do if you just try. Say you have 5 families and 
maybe they saved for their child to go to college and they're 
not going to college. Just with that much investment you can 
start a business and employ people as we do.
    Ms. VELAZQUEZ. Thank you. Mr. Cronin, what are the biggest 
barriers your son has faced as a young adult preparing to leave 
high school and transition into employment?
    Mr. MARK CRONIN. Ms. Ireland refer to the 22 year old 
cliff. In New York, we call it the 21 year old cliff. Right. 
You finish school and this is kind of my large scale view of 
it. We have made tremendous strides in the medical area with 
John for example. He had intestinal bypass surgery on day 3 and 
open heart surgery before he was 3 months old. That would not 
have happened 10 years earlier, right.
    We have done a pretty good job in the schools. It can 
always bet better. So we have people who are healthy, who are 
trained and then they hit that 21 year old cliff and there is 
nothing. We have this vast untapped pool of labor. And which is 
a great national resource and we are not able to put them to 
work. Employers need to be able to see past that first 
impression.
    Ms. VELAZQUEZ. Yes.
    Mr. MARK CRONIN. To see what the skills that people have as 
opposed to what they can't do. And some of that I don't think 
we can make them but we have to let them see through example 
how this is a benefit and they're not really going to have a 
choice because there is this growing shortage of labor and we 
have this pool of people that are ready, willing and able to 
work and they are great employees.
    Ms. VELAZQUEZ. Thank you. Thank you. Mr. Friedman, one of 
the common misconceptions about hiring individuals with 
disabilities is the need for costly accommodations in the work 
place. Can you elaborate on the actions Autonomy Works took to 
accommodate its workforce?
    Mr. FRIEDMAN. Right. We have discovered that the cost of 
accommodations is very low. We have very small accommodations 
for people. We have a sensory room where people can go take a 
break if they become overwhelmed from a sensory perspective. A 
number of people have headphones and so forth but the average 
accommodation for our associates is less than $100.
    Ms. VELAZQUEZ. Okay. My time has expired
    Chairman CHABOT. Thank you very much. The gentlelady's time 
is just about to expire so the gentleman from Kansas, Mr. 
Marshall, is recognized for 5 minutes.
    Mr. MARSHALL. All right. Well, thanks so much. I just, I 
wish John was in here to tell him but, you know, today we are 
going to meet astronauts, the Secretary of Energy, the 
Secretary of Transportation. I met Peter Navarro, but John 
Friedman is the most inspirational person I will meet today. 
And that is just the message of hope I would give everybody. I 
am so impressed that, you know, this concept that a job brings 
value to people and that--and that's what folks want. I have 
been able to visit 6, 7, maybe 8 different facilities that give 
work opportunities to folks with disabilities and just to see 
the happiness, the hop in their step is a great thing.
    You know, what else can we do to empower you? We have got 
legislation you have talked about. What else can we do to 
empower as a Congress to put wind beneath your sails. Anything 
else that you all might mention you want to talk about?
    Ms. IRELAND. May I go first?
    Mr. MARSHALL. Yes.
    Ms. IRELAND. Okay. Increase the substantial gainful 
activity level at least to the level of those who are blind. 
Substantially increase the resource limit for SSI and annually 
indexed for inflation. Enact simplification of work incentives 
including allowing ongoing presumptive reentitlement to Title 
II disability benefits and ongoing eligibility for Medicare for 
those whose benefits and for those who lose benefits to be 
continue to be employed. Provide cash assistance outside of 
Social Security to assist working individuals with disabilities 
in meeting their disability related costs regardless of their 
income or assets. Enact technical and substantive changes to 
the Ticket to Work and work incentives programs to ensure the 
law works as intended. Protect the Affordable Care Act and 
provide incentives to states to expand Medicaid authorized by 
the law. Support the Able Act and bills to expand it. Thank 
you.
    Mr. MARSHALL. All right. And those last comments were meant 
for John Cronin, sorry, Mr. Friedman, if I said you. I meant it 
for John, he had stopped out a little bit. Mr. Cronin, anything 
else you would add to help empower you all?
    Mr. MARK CRONIN. I only half-jokingly say John and I are a 
couple of knuckleheads from Long Island running a sock company. 
We don't have any special training. We hire people. We make 
accommodations that any employer would make for any employee. 
The biggest hurdle we see are the limits that our employees 
face to work and that is because they're dependent on their 
Medicaid and that's means tested and that runs contrary to 
wanting people to work. So we have to find the way to decouple 
that so that people can work to the fullest extent possible and 
still receive the benefits they need to support themselves.
    Mr. MARSHALL. Okay. I mean, I would just add that we need 
to drive the cost of healthcare down so you can afford to 
purchase health insurance for these employees again equal 
footing with the other types of----
    Mr. MARK CRONIN. Well, there is one thing to know. We do 
provide health insurance for our employees.
    Mr. MARSHALL. Great.
    Mr. MARK CRONIN. But Medicaid provides services that 
traditional health insurance doesn't provide that is essential 
for people with disabilities.
    Mr. MARSHALL. Right. And that is why it is so important 
that we prioritize Medicaid dollars for those who need them the 
most. As opposed to people who are fully employable but choose 
not to be. Mr. Friedman, did you have something you wanted to 
add?
    Mr. FRIEDMAN. Yes, first of all I would agree with 
everything that these folks said. Two other things. 
Transportation ends up being a significant issue for many of 
our employees. Some of our employees commute as far as 90 
minutes to get to work so improved infrastructure for 
transportation would allow more people to work at a location 
like ours.
    And second, the WIOA spending bill calls out investment in 
people with disabilities and we would encourage Congress to 
maintain the flexibility in those numbers so that we can 
continue to innovate and try to create new ways to hire people 
with disabilities as opposed to just investing in old ways.
    Mr. MARSHALL. Okay. Ms. Geiger, we have got 30 seconds left 
if you want to add something.
    Ms. GEIGER. Sure. I would just reiterate this idea of 
starting early. You know, there are systems and laws and acts 
in place and starting to plan for employment in adulthood at 14 
is something that parents and people with autism themselves 
really need to be aware of and take advantage of the resources 
that are available within the school system so that you are 
successful when you leave the school system.
    Mr. MARSHALL. Thank you and I yield back.
    Chairman CHABOT. Thank you. The gentleman yields back. And 
the gentleman from Pennsylvania, Mr. Evans, who is a Ranking 
Member of the Subcommittee on Economic Growth, Tax and Capital 
Access, is recognized for 5 minutes and I would like to 
compliment him as well as other members on both sides of the 
aisle who had bills passed on the floor of the House yesterday. 
Almost all of them were bipartisan and this is one Committee 
that actually works together in a bipartisan manner and I want 
to commend the Ranking Member for that as well. So the 
gentleman is recognized.
    Mr. EVANS. Thank you, Mr. Chairman. I would like to thank 
you and the Ranking Member for both your leadership on allowing 
all of us to participate so I thank you.
    And I do want to stress that I have not met anybody who 
doesn't want to work. I think that is very important to stress 
because in my district, Temple University, the College of 
Education has an institute on disability. They match eligible 
people with intellectual and development disability to unpaid 
internships at Temple University Hospital and Temple University 
in Philadelphia. The goal of achieving long term and part time 
employment.
    What can we do to promote greater partnerships through 
these small business owners and local universities to help 
people with disabilities as well as how can we expand this 
cross fertilization of local universities expertise to promote 
the employment of people with disabilities and small business. 
So that is for the panel. Two questions asked.
    Mr. FRIEDMAN. The local community system, particularly the 
community college system provides a great opportunity to 
transition people as they finish transition programs. People 
have talked about a 21 or 22 years old and it's a place to go 
to start to develop skills. We recently participated in an 
initiative with the vocational rehabilitation group in 
Illinois, the Department of Commerce and Economic Opportunity, 
and the local community college to identify people with 
disabilities, jointly enroll them in training at Autonomy-Works 
and the community college and employ supports from the state to 
enable them to transition into jobs. We ended up hiring 10 
people at Autonomy-Works and trained and offered 
apprenticeships to more than 50 through that program.
    Mr. EVANS. Any other person on the panel?
    Ms. IRELAND. Yes, I would like to go. When we founded 
Extraordinary Ventures it was growing pretty slowly and so I 
yielded my board seat to my husband who is a more creative 
thinker than I am and he got this idea of tapping into the 
social entrepreneurship sort of spirit in the United States and 
again I live in a college town, University of North Carolina 
Chapel Hill is right there. You have lots of young people.
    Analogous to teach for America they want to be social 
entrepreneurs. They want to come out. They don't necessarily 
have any experience with disabilities but they get to run 
businesses and start new business and learn a whole different 
part of society and they work a little less expensively than 
your typical employee. So I think tapping into the universities 
and that spirit of social entrepreneurship amongst neuro 
typicals would be very helpful.
    Mr. EVANS. Thanks.
    Ms. GEIGER. One of the other things that's really important 
is getting the word out. Hearings like these, replicating 
services, and one of the things we are really working on and 
toward at Autism Speaks is really cataloging and codifying 
these kind of best practices so that when someone is working in 
a local university or a local college they don't have the 
reinvent the wheel. Gosh, here is what works really well at 
Temple or here is what works really well at another university. 
And replication should happen as fast as we can make it.
    Mr. EVANS. I would like to go to John. John, how can we 
help schools better assist those with disabilities enter the 
work force?
    Mr. MARK CRONIN. The schools there are two general things 
that they are addressing. There is generally life skills and 
they do a pretty good job on that. It is more the transition 
skills and specific job skills that could be used in the 
community so that's I think doing a better job of matching 
local schools with businesses so the schools know what jobs are 
out in their local business.
    I know some of what we do, we host school tours so we have 
6 to 8 schools that come each week to visit our office and 
warehouse and we host school work experience groups that they 
will bring a group in once a week for an hour or two just to 
know what it is like to get in the workplace. I think those are 
the types of programs that would help make that transition from 
schooling to employment.
    Mr. EVANS. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back. The gentleman from Utah, Mr. Curtis, is recognized for 5 
minutes.
    Mr. CURTIS. Thank you, Mr. Chairman and Ranking Member for 
holding this hearing. I can't tell you how pleased I was to 
hear that there was a John coming to talk about crazy socks. 
And Washington, D.C. has lots of problems and one of those is 
too many boring socks. And I have been trying to work with my 
colleagues to get them to take the lunge and not having a lot 
of success and so maybe John can help me. And I believe we have 
an appointment later in the day and look forward to expressing 
my admiration to him. He was pretty brave to be here this 
morning. And look forward to a discussion with him.
    Chairman CHABOT. If the gentleman would yield for just a 
moment----
    Mr. CURTIS. Please.
    Chairman CHABOT. I, you might have a better audience with 
our democratic friends. Maybe the Republicans, we are just kind 
of concerned about our socks----
    Mr. CURTIS. They are more progressive with things and maybe 
socks is one of those right.
    Chairman CHABOT. Maybe wrong but----
    Mr. CURTIS. I think John has probably found this but they 
make people smile. And they make people happy. I was mayor of 
my town back in Provo and I found that by wearing a fun pair of 
socks people would stop and talk to me that wouldn't otherwise 
talk to me and I found myself pulling up my pant legs every 
three or four feet down the road showing people my socks. So my 
hat is off to him and what he has been able to accomplish.
    I do have a couple of questions and maybe start with you, 
Mr. Cronin, and the others please jump in. I have been thinking 
a lot about your comments about equal pay and to be honest its 
changed a little of a paradigm in my mind and so if you don't 
mind I would just like to kind of explore that with you and if 
I show some biases in my paradigm, please forgive me because I 
am just trying to now understand what you have told me that I 
haven't really heard before.
    And my assumption before this was that there were a lot of 
benefits to providing opportunities for people with 
disabilities to work. One of which was compensation but there 
were many other benefits as well. Can you just help me get my 
arms around that as I would, might have an opportunity to 
approach employers and lobby for your requests and help me 
understand how, the whole picture of working?
    Mr. MARK CRONIN. The work is important. Particularly here 
in the States, right. What do we ask somebody? What do you do? 
You meet somebody, what do you do? So having the job gives 
value and meaning to people. The wage is part of it. The wage, 
we don't feel better necessarily by being paid more but if we 
are underpaid that gnaws at us and that applies to everybody 
because if you are underpaid you feel undervalued. What we find 
is people are doing work of real value. And I understand about 
the sheltered workshops but they are people doing real value 
there too. And we ought to be paying them at least the minimum 
wage. That's part of what they're getting, what they should be 
getting at work because everybody gets at work.
    And we do find that we do have some, you know, we think of 
them as they have evolved into special programs for our 
differing abled employees because we are always helping them 
learn things. So a small thing we gave everybody an email 
address even if they didn't have a computer to use and we 
showed them, we put it on their phone so everybody would learn 
how to communicate via email. And we gave everybody a business 
card because that gave them some pride in their job and we make 
it pay. They have a discount on the back of it and we have a 
discount contest going on.
    We run programs now, we think of it as a program, of at 
least once a month we have an after hours work program. So last 
week we took them to a dinner. We took everybody in the company 
to a dinner hosted by the Chamber of Commerce because a lot of 
our folks don't have those social opportunities. So here is a 
way for them to get out without necessarily mom and dad to 
learn how to carry themselves.
    The wage becomes part of that. If we want them to be 
independent, if we want them to carry their weight in society, 
we have to pay a fair wage and so when we turn and say you're 
worth less--we have a bad history in this country of telling 
people they're worth less than other folks in the country and 
we shouldn't be doing that with the differing abled. We should 
recognize what they do and one way to do that is with pay.
    Mr. CURTIS. Thank you. Unfortunately I am almost out of 
time but let me just emphasize that and thank you for helping 
me understand that as well as treating them equally with things 
like email addresses and the many other things that you listed. 
As you explain it it seems so obvious to me but I am not sure 
we have all thought about it.
    Mr. MARK CRONIN. Its, none of what we do is rocket science. 
It's fairly basic. Like I say and John will be back in a 
minute, we are a couple knuckleheads from Long Island running a 
sock business. And you're just treating people well and it 
turns out they respond better and are better employees because 
of it.
    Mr. CURTIS. Thank you. I am out of time but I look forward 
to seeing John and his knuckleheaded father a little in the 
day, later in the day. I yield my time, thank you.
    Chairman CHABOT. Thank you. The gentlelady from American 
Samoa, Ms. Radewagen, who is the Chairman of the Subcommittee 
on Health and Technology is recognized for 5 minutes.
    Mrs. RADEWAGEN. Good morning and thank you, Chairman 
Chabot, Ranking Member Velazquez for holding this hearing. 
Thank you all for testifying here today. I think I am going to 
go back to Mr. Cronin and direct my questions to you although 
they have been partially answered along the way.
    I think that John, John's success story is an inspiration 
not only because of what he has been able to accomplish but 
also because of the challenges he, you, his parents, and so 
many other people with Down syndrome have had to overcome to 
achieve their aspirations.
    In fact, my sister Seena Tiana Coleman, she was born with 
Down syndrome and she just passed away at the age of 59, 
exactly one week ago on May 1. And we learned so much from her. 
We were 13 children and she taught us about the joys over the 
simple things in life, you know, and unconditional love. But 
soon after she was born, the doctors said that she should be 
institutionalized and not to ever put any assets into her name. 
Well, my parents didn't pay much attention to that and they 
raised her, she got an education and she led a very active life 
and an independent life as long as there was an adult not too 
far from where she was.
    But at any rate, so you have told us about some of the 
challenges you faced along the way and whether it was getting 
the appropriate education or getting access to the support and 
services that John needed. John is your son, right? Or is it 
Mark? Yes, you are Mark and John needed to----
    Mr. MARK CRONIN. I'm his chauffeur.
    Mrs. RADEWAGEN.--to ensure that opportunities that are 
available to all Americans would be available to people like 
John and my sister Seena.
    So I think you have partially answered this but what advice 
would you give to future entrepreneurs and their families who 
look up to John's success?
    Mr. MARK CRONIN. Well, if you look at what we did, you 
know, the story is John was in his last year of school. He 
wanted, he had already had a job working with me in an office. 
He wanted meaningful work. It was plain to him one way to do it 
was create something himself. So he came and said I want to go 
into business with you. He had a couple of nonstarter ideas. We 
could tell you about the food truck. But when he came and said 
we should sell socks and he had the name and drawings of a 
website, it was really a matter of lets go test it.
    There is a lean start up movement in this country that 
instead of spending a lot of time on business plans, go and 
test it and you will find out. You will find out whether or not 
people respond and then learn as you go. When people approach 
us, I don't have any magic answers. I encourage people if you 
have an idea go and find out. Go and take that chance. The 
worst thing that happens is you lose your startup money and for 
a business like this, that was a couple thousand dollars. 
That's, I wish I had a better answer to, you know, do A, B, and 
C but it is, you know, John has to be like any other 
entrepreneur. If you get an idea go out and stand in the 
marketplace and see if it is going to succeed.
    Mrs. RADEWAGEN. Thank you, Mr. Chairman, I yield back.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back and I think on behalf of all the members of the Committee 
we wish you condolences for the loss of your sister Seena. As 
you may know I lost my brother two weeks ago as well so we have 
got lots of, yes, he was my older brother. He was a Democrat by 
the way too. I was the only Republican he ever voted for so. I 
think he voted for me. He said he did but no, he was a great 
guy.
    In any event, I think the gentleman from South Carolina, 
Mr. Norman is next. He is recognized for 5 minutes.
    Mr. NORMAN. Thank you so much. I appreciate you all, your 
being here and this is moving to see your son. We, my office 
takes part in the Mason Light program and I am a small business 
guy. We run a construction company, development company and 
what would help and I know we have tried and we have had hired 
those with disabilities. I don't need to tell you it's a 
litigious society. The trial argues everywhere and as a small 
business owner, we want to find ways to hire people with 
disabilities.
    What would help from a practical side is to reach out to 
the businesses to say you have a particular child with, that 
has a talent that may be good at something with construction 
which is what we do. Or a particular field of mixing mortar for 
a masons job. And then I will tell you it is not going to, I 
don't have to have government to tell me what I am going to 
have to pay. We will pay over because of just of the nature of 
helping somebody.
    So that would help in my mind to--as you move forward and 
as you want to find ways, all the questions have been asked but 
from a practical standpoint, reach out to us and say what need 
do you have? Then I have this particular individual with a 
disability. He can do I think give him a chance. I don't think 
there is a business in this country that wouldn't reach out and 
try to accommodate because it is the goodness of people that 
wants to help your son but we just don't know a lot of times 
and you get so busy running your company, I don't have time to 
go to the vocational rehab and see who is there but reach back 
out to us. That would pay dividends in my mind. But thank you 
for what you are doing. You are bringing things to light that 
is very useful and again, it is moving to see.
    Chairman CHABOT. Does the gentleman yield back? Yes.
    Mr. NORMAN. Yes, I am sorry, I yield back.
    Chairman CHABOT. Thank you. The gentleman yields back. We 
want to thank the witnesses here and the members on both sides 
today. I would like to recognize somebody else who is in the 
audience here, Chip Gerhardt who is from my district. I don't 
know if Chip is the head of the Down Syndrome Society?
    Mr. GERHARDT. Former board chair.
    Chairman CHABOT. Former board chair. That's right. And 
Chip's daughter Ann has been an inspiration to me and all the 
rest of Cincinnati over the years as we have watched her grow 
up and is now, you know, a wonderful young woman who is 
working. Isn't she working at Kroger?
    Mr. GERHARDT. Kroger.
    Chairman CHABOT. Yes. So she is great and I have learned a 
lot just be interacting with her and a lot of other great 
constituents of mine back in Cincinnati who have Down syndrome 
or autism or a whole range of other challenges in life. And 
this hearing is about the most inspirational hearing that we 
have had since the one we had about two years ago. And it was 
basically the same topic and so thank you. And, Mark, thanks. 
You have got a great son. We are really happy that we got to 
meet him today and we hope you sell a lot of socks in the 
future and I wasn't kidding when I said the guy from down 
there, he is, he will keep you in business for a long time on 
his own I think.
    But in any event, we would ask unanimous consent that all 
members have 5 legislative days to submit statements and 
supporting materials for the record. Without objection, so 
ordered.
    And if there is no further business to come before the 
Committee, certainly there couldn't be anything that has been 
more inspiring than this morning and now into this afternoon. 
We are adjourned. Thank you very much.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]
    
                   A P P E N D I X
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            


                                 <all>
</pre></body></html>
